                   Department of Justice
                       United States Attorney Stephen R. Wigginton
                                Southern District of Illinois

______________________________________________________________________________

FOR IMMEDIATE RELEASE                                             CONTACT: James L. Porter
FRIDAY, DECEMBER 2, 2011                                          PHONE: (618) 628-3700
WWW.JUSTICE.GOV/USAO/ILS/


                       TROY MAN FOUND GUILTY OF
           ACCESS DEVICE FRAUD AND AGGRAVATED IDENTITY THEFT

       Chad Vincent Iacona, 44, of Troy, Illinois was found guilty on December 2, 2011, in United
States District court in East St. Louis by a jury’s verdict following a four day trial on one count of
Fraud in Connection with an Access Device, and one count of Aggravated Identity Theft, Stephen
R. Wigginton, the United States Attorney for the Southern District of Illinois, announced today.
       Specifically, evidence at trial showed that Iacona, who purchased D & L Investigations, Inc.
on May 1, 2005, had used the name and social security number of the former owner to apply for,
obtain and use, without her authorization, a $50,000 revolving credit account from Wells Fargo. The
Access Device Fraud has a potential sentence of up to ten (10) years imprisonment, and up to three
years’ supervised release. The Aggravated Identity Theft count has a potential sentence of not more
than two years’ imprisonment (consecutive), and not more than one year supervised release. Both
counts include a potential fine of $250,000 and a $100 assessment. Sentencing is scheduled for
March 8, 2012, at 1:30 pm.
       The investigation was conducted by the United Postal Inspection Service. The Social
Security Administration, Office of Inspector General, assisted with the investigation. The case was
prosecuted by Assistant United States Attorneys Katherine L. Lewis and Michael J. Quinley.


                                                 ###
